Report on USAID's Compliance with Provisions of
the Federal Program Information Act of 1977
Audit Report No. 0-000-02-001-F
February 13, 2002




                Washington, D.C.
Page intentionally left blank.
U.S. Agency for
 International
 Development

Office of Inspector General
Financial Audits Division


MEMORANDUM
FOR:                  M/OP, Mark Ward

FROM:                 IG/A/FA, Alvin Brown

SUBJECT:              USAID Compliance with Provisions of the Federal Program Information
                       Act of 1977 (Report No. 0-000-02-001-F)

The attached report summarizes the results of our audit on USAID’s Compliance with
Provisions of the Federal Program Information Act of 1977 (P.L. 95-220) and OMB
Circular A-89. We have determined that USAID does not comply with certain provisions of
the Act, or with provisions of the Circular, and that this noncompliance is having a negative
impact on the assistance awarded by USAID. Accordingly, within this report, we made
three recommendations to address these deficiencies. Your comments are included in their
entirety in Appendix II.

Based on your comments, the Office of Procurement concurs with the recommendations
made in this report. Please notify the Office of Management Planning and Innovation
(M/MPI) when final actions on these recommendations are completed, and request closure.

We appreciate the cooperation and courtesies that your staff extended to my staff during
our audit. If you have questions concerning this report, please contact Andrew Katsaros at
(202) 712-4902.

Attachment (as stated)

cc:      PPC/AA, Kenneth Schofield




                                                                                                1
Table of   Summary of Results                                           3
Contents   Background                                                   3

           Audit Objectives                                             4

           Audit Findings                                               4

           Management Comments and Our Evaluation                       11

           Appendix I - Scope and Methodology                           12

           Appendix II - Management Comments                            14

           Appendix III - Federal Agencies Included in the Catalog of   15
            Federal Domestic Assistance




                                                                             2
Summary of   We determined that USAID is not in compliance with provisions of Public
Results      Law 95-220 (31 U.S.C. 1703 § 4(b)(1)), and Office of Management &
             Budget (OMB) Circular A-89. The law requires each Federal agency to
             furnish current information on all of its domestic assistance programs to the
             Director of OMB. OMB Circular A-89 requires Federal agencies to include
             current information on all domestic assistance programs in the Catalog of
             Federal Domestic Assistance (CFDA) maintained by the General Services
             Administration. We determined that USAID awards to domestic nonprofit
             organizations meet the definition of domestic assistance programs covered
             by the Act and the Circular, and are therefore required to be included in the
             CFDA. We also determined that USAID has not provided adequate
             visibility of its domestic assistance awards to prospective recipients (p.5) and
             that the absence of programs from the CFDA could potentially negatively
             impact USAID-financed audits of nonprofit entities (p.6). Also, because of
             its noncompliance, USAID is limiting its ability to fully participate in
             Federal grants management reform innovations (p.7) and USAID grant
             award announcements are not being made available to the widest possible
             audience (p.8).


Background   The Federal Program Information Act of 1977 (P.L. 95-220) was enacted
             to ensure that comprehensive information on Federal assistance programs
             was readily available to interested parties. This law required that the
             Director, OMB establish and maintain a computerized information sys tem
             which is capable of identifying all existing Federal domestic assistance
             programs and which makes information about these programs available in
             a catalog to the public. The Federal Program Information Act of 1983
             (P.L. 98-169) amended the 1977 Act. This amendment gave the
             Administrator of General Services the responsibility for the efficient and
             regular accumulation and distribution of current information on Federal
             domestic assistance programs. Federal agency responsibilities were not
             changed by the amendments.

             OMB Circular A-89 implements the Act by requiring that Federal
             agencies provide OMB with information on their individual Federal
             domestic assistance programs, and by stipulating that the General Services
             Administration (GSA) will include the submitted information in a Catalog
             of Federal Domestic Assistance (CFDA). The CFDA provides potential
             domestic assistance recipients with a single-source of information on
             programs through bound versions and through its Internet web site at
             http://www.cfda.gov.

             The Circular also requires that each program be assigned a unique
             program number (a.k.a. CFDA number). These program numbers are



                                                                                                3
                   tools by which Federal assistance, whether in practice called a program,
                   activity or some other name, can be readily identified and categorized.

                   The OIG has performed several recent reviews of audits of USAID
                   assistance recipients, which have raised questions about the absence of
                   CFDA numbers associated with USAID domestic assistance awards. These
                   concerns focused on whether or not these omissions negatively impacted
                   audits of USAID award recipients, but also raised questions about whether
                   or not USAID’s assistance was receiving optimal visibility among
                   potential applicants.

                   Lastly, the Federal Financial Assistance Management Improvement Act of
                   1999 (P.L. 106-107) has been enacted to improve the effectiveness and
                   performance of Federal financial assistance programs, simplify Federal
                   financial assistance application and reporting requirements, and improve the
                   delivery of services to the public. One of the stated requirements of the Act
                   is for Federal agencies to demonstrate appropriate agency use of a common
                   Federal-wide grant application and reporting system. USAID does not
                   participate in the current Federal-wide system.


Audit Objectives   Our review addressed the following question:

                   Is USAID operating in compliance with provisions of the Federal
                   Program Information Act of 1977 (P.L. 95-220) and OMB Circular
                   A-89 concerning the submission of program award information to
                   GSA?

                   USAID is not in compliance with the provisions of P.L. 95-220 or OMB
                   Circular A-89 concerning the submission of program award information to
                   GSA. Our audit was prompted by concerns about whether or not
                   perceived adverse impacts on the effectiveness of OMB Circular A-133
                   audits could be caused by USAID non-compliance with the law and
                   regulation. Our audit scope and methodology are included in Appendix I.



Audit Findings     Is USAID operating in compliance with provisions of the Federal
                   Program Information Act of 1983 (P.L. 95-220) and OMB Circular
                   A-89 concerning the submission of program award information to
                   GSA?

                   USAID has not provided GSA with information on its domestic assistance
                   awards. Provisions contained within P.L. 95-220 and OMB Circular A-89
                   require that this information be sent to GSA. This noncompliance was due
                   to USAID’s misunderstandings about the law and about OMB Circular
                   A-89. This non-compliance (1) could have a negative impact on the


                                                                                                   4
visibility of USAID assistance programs to prospective recipients and
(2) could potentially negatively impact OMB Circular A-133 audits.

USAID Grant Programs are not Identified in the Catalog of Federal
Domestic Assistance.

USAID domestic assistance program information is not being published in
the Catalog of Federal Domestic Assistance published by the General
Services Administration. This Catalog provides general information about
Federal domestic assistance programs to prospective award applicants and
other interested users, and provides all interested parties with Federal
points of contact for each individual program, This information is required
by Public Law 95-220 (31 U.S.C. 1703 § 4(b)(1)), and by OMB Circular
A-89. The noncompliance was caused by misunderstandings of USAID
officials concerning the law and regulation, and can potentially negatively
impact audits of USAID grant awards.

USAID is required by the Federal Program Information Act and by OMB
Circular A-89 to assist the Director of OMB in identifying all of its existing
Federal domestic assistance programs, and to provide information on each of
its programs, to prospective recipients. Specifically, the Federal Program
Information Act requires Federal agencies to furnish OMB with current
information on all domestic assistance programs that the agency administers,
and establishes the CFDA as the vehicle by which domestic assistance
program information is made available to the public. OMB then provides
domestic assistance program information to GSA, who maintains the CFDA,
and ensures that relevant updates are recorded on a regular basis. To assist
Federal agencies in preparing and submitting Federal domestic assistance
program information, GSA has issued the Catalog of Federal Domestic
Assistance Reference Manual for Agency Liaisons and Staff. The January
2001 edition of the manual contains detailed instructions and guidelines for
the submission of program information and for the electronic submission of
program data into the CFDA.

OMB Circular A-89 is the implementing guidance that requires Executive
branch agencies to submit information to OMB related to all domestic
assistance programs and activities that are federally funded and that are
administered by Federal agencies. One of the objectives of OMB Circular
A-89 is to establish a “single, authoritative, Government-wide
comprehensive source document of Federal domestic assistance.”
Although USAID provides such assistance, its grant award programs are
not included in the CFDA.

According to the definitions within P.L. 95-220 and OMB Circular A-89,
USAID grants and cooperative agreements to U.S.-based nonprofit
organizations, universities, and state and local governments qualify as



                                                                                 5
Federal domestic assistance. However, according to GSA's Federal
Domestic Assistance Catalog staff, USAID does not provide OMB, or
GSA, with any of the Agency’s domestic assistance program information.

Two USAID officials in the Office of Procurement indicated that they
could not identify any USAID programs that they thought would qualify
as domestic assistance programs, and that USAID programs were
consequently ineligible for inclusion in the CFDA. This assumption led to
the conclusion that USAID has no reporting requirements under the
Federal Program Information Act of 1983 or under OMB Circular A-89.

According to Agency sources, USAID officials made these conclusions
because an official from GSA instructed one of them that "for a program
to be listed in the CFDA…. U.S. entities have to be beneficiaries."
Unfortunately, this led to an incorrect interpretation of the language within
the law and regulation. Both define "domestic assistance" as simply any
function whereby a Federal entity provides assistance or benefits to a non-
federal domestic entity or individual.

Through conversations with officials from GSA, OMB, and the USAID
General Counsel, we have determined that there is no relationship between
the nature of domestic assistance and its beneficiaries. A program in
which USAID has issued a grant to a U.S.-based nonprofit organization
would qualify as domestic assistance, regardless of where the non-profit
organization actually conducts its federally funded activities. There is no
suggestion within the law that a program’s purpose or ultimate
beneficiaries are a determinant of a Federal domestic assistance program.
Therefore, as a Federal agency providing domestic assistance, USAID is
covered under the Federal Program Information Act of 1977 and under
OMB Circular A-89.

Audits of USAID Grant Recipients are Potentially Inconsistent Due to
Noncompliance

USAID’s non-compliance with 31 U.S.C. 1703 § 4(b)(1) and with OMB
Circular A-89 has allowed non-Federal auditors to exercise considerable
judgment in making major program determinations related to USAID-
financed OMB Circular A-133 audits of states, local governments and
domestic non-profit entities. Also, because assistance programs are not
effectively identified by USAID, the Agency has not aggressively
attempted to provide audit guidance to non-federal auditors of USAID
award recipients.

USAID furnishes assistance to States, local governments, domestic
universities and domestic non-profit organizations. According to OMB
Circular A-133, such recipients expending more than $300,000 in Federal



                                                                                6
assistance within a year are required to have an audit performed in
accordance with the Circular. Non- federal auditors are primarily
responsible for performing these audits of USAID award recipients.
However, auditors conducting such audits lack guidance in identifying
USAID’s Federal assistance programs because these programs do not
contain unique program identification numbers for inclusion in the GSA
Catalog of Federal Domestic Assistance.

This situation can cause auditors to make substantially different judgments
in determining which USAID awards are subject to compliance testing for
the purpose of performing an acceptable A-133 audit.

As an example, an auditor of a USAID award recipient may determine that
all USAID awards should be considered as one population for the purpose
of compliance testing, regardless of the various program objectives of
these individual awards. However, an auditor of another USAID award
recipient may determine that each of its USAID awards should each be
considered separately for the purpose of selecting those awards that will
be subject to A-133 compliance testing.

Because only a sample of awards are selected for compliance testing for
an A-133 audit of a nonprofit organization, the lack of guidance on the
selection of these items can cause inconsistent audit approaches, as
explained in the previous examples. OMB Circular A-133 audits of
USAID assistance are therefore potentially inconsistent and less effective
than possible.

       Recommendation No. 1: We recommend that the Director,
       Office of Procurement, with the assistance from the USAID
       Office of Policy and Program Coordination, develop and
       implement a plan to include USAID grant programs in the
       Catalog of Federal Domestic Assistance in accordance with the
       Catalog of Federal Domestic Assistance Reference Manual for
       Agency Liaisons and Staff.


USAID Lacks Participation in the Federal Commons Internet Portal

USAID does not participate in the Federal Commons Internet portal. This
portal was developed from Federal financial assistance streamlining
efforts mandated by The Federal Financial Assistance Management
Improvement Act of 1999 (P.L. 106-107). USAID does not participate in
the Internet portal because the Agency is not currently in compliance with
OMB Circular A-89 and the Federal Program Information Act, as
previously mentioned. Because of this noncompliance, it will be difficult




                                                                              7
for the Agency to readily participate in grant reform efforts mandated by
P.L. 106-107.

One of the goals of P.L. 106-107 is for Federal agencies to actively
participate in interagency initiatives related to Federal financial assistance.
In response to this objective, a Federal- wide Internet grants portal has
been established for the grantee community and can be accessed at
http://www.cfda.gov/federalcommons/ (a.k.a. Federal Commons). Within
the Federal Commons Internet site, grant applicants can browse all
Federal programs by grant topic, regardless of the sponsoring Federal
agency, thereby establishing a Federal community tailored to prospective
grantees.

In order for USAID to participate in the Internet grants portal established
under Federal Commons, USAID must begin to comply with requirements
that have guided the Federal grant community since 1977, for the
following reasons.

•   The Federal Commons site is organized by grant type, not by Federal
    agency. Federal agencies participating in Federal Commons,
    therefore, have defined their programs based on categories of Federal
    financial assistance from the perspective of potential applicants. This
    is a simple exercise for participating agencies because the CFDA
    includes program descriptions and titles.

•   Because USAID grant programs are not defined in the CFDA,
    announced in the Federal Register, or organized by type of award, the
    grantee community does not receive information on USAID grant
    programs in a manner consistent with that of other Federal agencies.
    Appendix III includes a list of 48 Federal agencies that make domestic
    grant awards, that are included in the CFDA:

By not participating in the Catalog of Federal Domestic Assistance,
USAID is in noncompliance with several laws and regulations, as
previously mentioned. As a result, the Agency’s Federal financial
assistance function is operating independently of the Federal grantor
community, and is not able to fully participate in related Federal-wide
developments, including those mandated by Public Law 106-107.

       Recommendation No. 2: We recommend that the Director,
       Office of Procurement, develop and implement a plan to allow
       USAID to participate in the Federal-wide grants Internet
       portal established as Federal Commons.




                                                                                  8
Notices of USAID Grant Awards are not Published in the Federal
Register.

USAID does not announce the availability of its grant awards in the
Federal Register. OMB Circular A-89 refers to the publication of general
Federal award program information in the Federal Register by requiring
that an official GSA program number (i.e. CFDA number) and title are
included when this information is published in the Federal Register.
USAID grant awards are not published in the Federal Register because
USAID officials did not fully understand the Federal Register Act and
because they felt that the current method of announcing USAID awards
was adequate. However, USAID awards are possibly being denied to
potential applicants who search the Federal Register for notices of the
availability of similar grant opportunities.

The Federal Register Act (44 U.S.C. §1505) indicates that “documents
having general applicability and legal effect” shall be published in the
Federal Register. It is the interpretation of the National Archives and
Records Administration’s Office of the Federal Register, that notices of
“public interest,” such as the “availability of applications” and “grant
application deadlines” shall be published in the Federal Register.

Notices of USAID domestic assistance awards are not being announced in
the Federal Register. USAID uses its own Internet web site to publish
information about its Federal assistance programs, although Agency
policy acknowledges that other media may be useful in certain
circumstances.

Because USAID officials did not understand the requirements of the
Federal Register Act, USAID policy and procurement managers followed
ADS 303 and therefore believed that publication of USAID awards in the
Federal Register was not required. Also, procurement officials felt that
existing policy gave adequate notice of the availability of USAID’s
assistance programs.

Compliance with 31 U.S.C. 1703 § 4(b)(1), and with OMB Circular A-89
would have made the availability of USAID’s assistance opportunities
visible to applicants through recognized Federal publications, where
notices of similar assistance opportunities are published. Because USAID
has not published its notices of availability of its domestic awards and
assistance programs in the Federal Register, in addition to its own Internet
web site, potential applicants may have been denied opportunities for
USAID awards.

       Recommendation No. 3: We recommend that the Director,
       Office of Procureme nt develop a plan to give wider notice of



                                                                               9
the availability of future USAID grants through publication in
currently acceptable Federal formats, such as Federal
Commons and the Federal Register.




                                                                 10
Management       The Office of Procurement concurred with our recommendations, and offered
Comments and     several informative observations regarding issues discussed in our report. We
Our Evaluation   have included these comments in their entirety in Appendix II.

                 Based on the comments provided, we consider final management decisions to
                 have been reached on each of the three recommendations included in this
                 report. Upon completion of final actions taken to implement the
                 recommendations identified in the report, the Office of Procurement should
                 consult with the USAID Office of Management Planning and Innovation to
                 request closure.




                                                                                            11
                                                                                                     Appendix I
                                                                                                     Page 1 of 2

Scope and                                     Scope
Methodology
                                              This audit was conducted in accordance with generally accepted
                                              government auditing standards to assess the extent of USAID’s
                                              compliance with provisions of P.L. 95-220 and with OMB Circular
                                              A-89. Although mentioned in this report, we did not audit
                                              USAID’s compliance with provisions of the Federal Financial
                                              Assistance Management Improvement Act of 1999.

                                              The scope of the audit was limited with respect to fieldwork.
                                              Because USAID noncompliance with the established criteria was
                                              quickly established throughout the Agency, testing individual
                                              grants for compliance was not necessary. USAID officials agreed
                                              that the testing of grant agreements and procedures was not
                                              necessary to address these issues. Also, because we initiated the
                                              audit with an understanding of the conditions and effects
                                              surrounding such noncompliance, these were also established
                                              without significant fieldwork. We determined the overall impact
                                              of the Agency’s noncompliance to quickly bring the issues to the
                                              attention of USAID management.

                                              The audit relates to USAID assistance to U.S.-based nonprofit
                                              recipients, and the grant- making procedures under which USAID
                                              was operating as of May 1, 2001. Annually, expenditures of
                                              USAID assistance by U.S. based nonprofit recipients are estimated
                                              to be in excess of $1.5 billion. 1

                                              Methodology

                                              This audit focused on OMB Circular A-89 and the Federal
                                              Program Information Act of 1983. The basic audit approach was
                                              to evaluate and analyze the law and regulation, and their intent, to
                                              1) determine the applicability to USAID programs; 2) determine
                                              whether or not USAID is in compliance; 3) identify any adverse
                                              effects of non-compliance; and 4) make recommendations as
                                              necessary.

                                              The audit involved discussions with the Agency's General Counsel,
                                              Office of Procurement and the Office of Policy and Program



 1
     Based on data retrieved from the Federal Audit Clearinghouse



                                                                                                                     12
                                                       Appendix I
                                                       Page 2 of 2

Coordination. Background work included work with the Office of
Management and Budget and the General Services Administration.

No extensive sampling of agency awards occurred with this audit.
Instead, discussions with major program managers and policy
officials were used as the basis of conclusions as to whether
USAID activities qualified according to the definitions within the
law and regulation.




                                                                     13
                                                                                     Appendix II



Management
Comments

                                                   January 24, 2002


MEMORANDUM

TO:           IG/A/FA, Alvin Brown

FROM:         M/OP/OD, Kathleen O’Hara

SUBJECT:      Draft Report No. 0-000-02-001F

Thank you for giving us the opportunity to review and comment on the draft report on USAID’s
Compliance with Provisions of the Federal Program Information Act of 1977 and OMB
Circular A-89.

We are in basic agreement with all of the recommendations and hope to be able to fully
implement them with PPC’s assistance in defining Agency programs.

With regard to Recommendation No. 1 to develop and implement a plan to include USAID’s
programs in the CFDA, we have some concerns about whether GSA will accept them for
inclusion in the Catalog. The individual who manages the program for GSA has told us several
times that program beneficiaries must be U.S. entities. However, we will work with GSA to
ensure that our programs are included if at all possible.

With regard to Recommendation No. 2, we are already working on issues concerning how to
participate in Federal Commons. It is important for the Agency that we participate.




                                                                                               14
                                                                           Appendix III


Federal Agencies   Appalachian Regional                Overseas Private Investment
Included in the     Commission                          Corporation
Catalog of         Architecture and Transportation     Pension Benefit Guaranty
                    Barriers Compliance Board           Corporation
Federal Domestic
                   Civil Rights Commission             President’s Committee on
Assistance         Commodity Futures Trading            Employment of People with
                    Commission                          Disabilities
                   Corporation for National and        Railroad Retirement Board
                    Community Service                  Securities Exchange Commission
                   Department of Agriculture           Small Business Administration
                   Department of Commerce              Social Security Administration
                   Department of Defense               U.S. Institute of Peace
                   Department of Education
                   Department of Energy
                   Department of Health and Human Services
                   Department of Housing and Urban Development
                   Department of Interior
                   Department of Justice
                   Department of Labor
                   Department of State
                   Department of Transportation
                   Department of Treasury
                   Department of Veterans’ Affairs
                   Environmental Protection Agency
                   Equal Employment Opportunity Commission
                   Federal Emergency Management Agency
                   Federal Communications Commission
                   Federal Maritime Commission
                   Federal Mediation Conciliation Service
                   Federal Trade Commission
                   General Services Administration
                   Government Printing Office
                   Library of Congress
                   National Aeronautics and Space Administration
                   National Archives and Record Administration
                   National Council on Disability
                   National Credit Union Administration
                   National Foundation of Arts and the Humanities
                   National Gallery of Art
                   National Labor Relations Board
                   National Science Foundation
                   Nuclear Regulatory Commission
                   Office of Personnel Management




                                                                                        15
